WAIVER

Supreme Court, U.S.
FILED

Supreme Court of the United States

OCT 3 1 2019

No. 19-504

OFFICE OF THE CLERK

v.

Kara Bowes
(Petitioner)

Christina Melito, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
Please enter my appearance-as Counsel of Record- for all respondents.
XX There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
American Eagle Outfitters, Inc. and AEO Management Co.

I am a member of the Bar of the Supreme Court of the United States.
XX I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.
72.Cif J. (7-

Signature
Date:

10/31/2019

(Type or print) Name Richard T. Victoria
M(Mr.

0 Ms.

0 Mrs.

LI Miss

Firm Gordon Rees Scully Mansukhani, LLP
Address 707 Grant Street, Suite 3800
City & State

Pittsburgh, PA

Phone 412-316-2926

Zip

15219

Email: rvictoria@grsm.com

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc:

Eric Alan Isaacson
Law Office of Eric Alan Isaacson
6580 Avenida Mirola
La Jolla, CA 92037-6231

Beth E. Terrell
TERRELL MARSHALL LAW GROUP PLLC
Email: bterrellaterrellmarshall.com
936 North 34th Street, Suite 300
Seattle, Washington 98103
RECEIVED

NOV 0 4 2019
Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

OFFICE OF THE CLERK
SUPREME COURT, U.S.

RICHARD T. VICTORIA
RVICTORIAeGRSM.COM
DIRECT DIAL: (412) 316-2926

GORDON&REES
SCULLY MANSUKHANI
YOUR 50 STATE PARTNERATTORNEYS AT LAW
707 GRANT STREET, SUITE 3800
PITTSBURGH, PA 15219
VWVVV.GRSM.COM

October 31, 2019
VIA FEDERAL EXPRESS

Scott S. Harris, Clerk of Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re:

No. 19-504, Kara Bowes v. Christina Melito, et al.

Dear Mr. Harris
On behalf of Respondents American Eagle Outfitters, Inc. and AEO Management Co.,
enclosed is a fully executed Waiver Form in connection with the above-referenced matter.
Do not hesitate to contact me should you have questions or concerns.
Best regards,
GORDON REES SCULLY MANSUKHANI, LLP

Richard T. Victoria
RTV/lls
Enclosure

RECEIVED
NOV - 4 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

